         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Briefing Report



       EPA Could Improve
       RCRAInfo Data Quality and
       System Development
       Report No. 11-P-0096

       February 7, 2011
Abbreviations

EPA         U.S. Environmental Protection Agency
OIG         Office of Inspector General
ORCR        Office of Resource Conservation and Recovery
RCRAInfo    Resource Conservation and Recovery Act Information System
                       U.S. Environmental Protection Agency 	                                              11-P-0096
                                                                                                     February 7, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review             EPA Could Improve RCRAInfo Data Quality and
We sought to determine
                                   System Development
whether data within the
Resource Conservation and           What Williams, Adley & Company, LLP, Found
Recovery Act Information
System (RCRAInfo) complied         RCRAInfo data that tracks hazardous waste handlers and the shipment and receipt
with prescribed system edit        of hazardous waste contains errors and is missing source documentation. These
and validation checks              conditions call into question the quality and reliability of data within the
designed to control data entry.    RCRAInfo system, as well as any resulting reporting. Further, RCRAInfo system
The Office of Inspector            owners did not follow the prescribed System Life Cycle Management testing
General contracted with            procedures to test and validate the updated software and updated system. For
Williams, Adley & Company,         example, the edit and validation checks did not work as intended, the data
LLP, to conduct this review.       dictionary was not maintained, and system coding errors existed in the system.

Background                         Further, field work found instances of test data comingled with production data.
                                   Overall, the above conditions were caused by not having specific data quality
RCRAInfo collects data from        procedures for RCRAInfo that align with the Agency’s data quality policy, not
states and private companies       following the System Life Cycle Management procedures for system
to track the generation,           development, and not adequately communicating with the states regarding the
shipment, and receipt of           RCRAInfo test environment. EPA is responsible for maintaining the technology
hazardous solid waste. This        platform in a manner that supports data quality and integrity, as well as for
data is reported to the public     oversight of the data quality program. As required by the EPA quality policy, EPA
in the Biennial Hazardous          organizations must document and implement a quality program for environmental
Waste Report and through the       data that is intended for external distribution.
Envirofacts website. The EPA
Office of Resource                  What Williams, Adley & Company, LLP, Recommends
Conservation and Recovery,
Information Collection and         Williams, Adley & Company, LLP, recommends the Director, Office of Resource 

Analysis is responsible for        Conservation and Recovery, Office of Solid Waste and Emergency Response, 

development and ongoing            implement a procedure for regional personnel to notify a state when changes are 

support of RCRAInfo.               made to handler records. The company also recommends that guidance and policy

                                   be provided on retaining source documentation, and that control procedures be 

                                   implemented on updating documentation and on reviewing the production 

For further information, contact   database for test data on a semiannual basis.

our Office of Congressional,
Public Affairs and Management      We met with Agency officials to discuss our findings and recommendations. 

at (202) 566-2391.
                                   The Agency provided responses, and we included those comments in the briefing 

The full report is at:             report. 

www.epa.gov/oig/reports/2011/
20110207-11-P-0096.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                        February 7, 2011

MEMORANDUM

SUBJECT:	             EPA Could Improve RCRAInfo Data Quality and System Development
                      Report No. 11-P-0096


FROM:                 Arthur A. Elkins, Jr.
                      Inspector General

TO:	                  Suzanne Rudzinski, Acting Director
                      Office of Resource Conservation and Recovery
                      Office of Solid Waste and Emergency Response


Attached is the briefing report on the subject audit conducted by Williams, Adley &
Company, LLP (Williams Adley), on behalf of the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that
describe the problems Williams Adley identified and corrective actions recommended.
This report represents the conclusions of Williams Adley and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

The estimated cost for performing this audit, which includes contract costs and OIG contract
management oversight, is $855,110.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to
this report within 90 calendar days. You should include a corrective actions plan for
agreed-upon actions, including milestone dates. Your response will be posted on the
OIG’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility
requirements of section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your
response contains such data, you should identify the data for redaction or removal. We
have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Patricia H.
Hill at 202-566-0894 or hill.patricia@epa.gov, or Rudolph M. Brevard at 202-566-0893
or brevard.rudy@epa.gov.
            EPA Could Improve RCRAInfo

                  Data Quality and 

                System Development




                R
                Results
                    lt off Review

                           R i



11-P-0096                                 1
Audit Methodology

   Documented the information flows and system controls over the
    Reso rce Conser
    Resource Conservation
                     ation and Reco
                               Recovery
                                     er Act Information S
                                                        System
                                                          stem
    (RCRAInfo).
   Did testing from January 2007 through December 2008.
   Conducted data integrity testing to evaluate compliance with
    RCRAInfo business rules (data dictionary and validation checks).
   Conducted data quality testing in five locations (Virginia, California,
    Arizona Hawaii,
    Arizona, Hawaii and Nevada) to verify accuracy of data entered into
    RCRAInfo.
   Tested 45 EPA handler IDs per state for Handler and Biennial Report
    data
    data.
   Tested 25 EPA IDs for manifest data (5 manifests per state).




11-P-0096                                                                     2
Data Quality Testing of Handler Data




                 Unavailable                                Correct
                    30%                                      55%




                   Exceptions
                      15%
Forty-five percent of the handler data values in RCRAInfo either did not match the source
documentation (data entry forms) or were not available for review
                                                           review.


11-P-0096                                                                                   3
Reasons for Data Quality Errors and
U
Unavailable
     il bl SSupporting
                   i D Documentationi
    State environmental agency staff stated that data is sometimes
     altered at the regional level and the state environmental office is not
     always notified.
    State environmental staff stated that updates to RCRAInfo data is
     sometimes initiated by phone calls from generators or handlers due
     to emergencies at the facility or other time sensitive events. State
     environmental staff sometimes update RCRAInfo data but do not
     always update hardcopy files.
    EPA does not have a consistent policy for states to retain source
     documentation.
                                                y apply
     State environmental staff do not consistently  pp y 
the established
     methodology for converting unit/weight/volume amounts on 

     manifests for entry into RCRAInfo.





11-P-0096                                                                      4
OIG Recommendations

  Director, Office of Resource Conservation and Recovery (ORCR),
  Office of Solid Waste and Emergency Response, should:

   1.	      Implement a procedure for regional personnel to notify a state
            when changes are made to handler records.
   2.	      C d t ttraining
            Conduct    i i ffor d
                                data
                                  t entry
                                      t personnell regarding
                                                        di the
                                                             th proper
            procedures for documenting updates to RCRAInfo.
   3.	      Provide guidance and policy from the program level regarding
            rettaining
                 i i source documentation.
                            d        t ti
   4.	      Provide additional guidance to states to facilitate accurate
            conversion of hazardous waste amounts as required for input
            i t RCRAInf
            into RCRAI fo.




11-P-0096                                                                    5
EPA’s Responses to the Findings


  1.	       ORCR stated that during the 2009 biennial report cycle, the
            states, not the
                         h regions,
                              i     lloaded
                                        d d the
                                             h bi
                                                biennial
                                                     i l report d
                                                                data di
                                                                     directly
                                                                           l
            into RCRAInfo.
  2.	       ORCR stated that it planned and budgeted for increases in
            sttate/regi
                t / ionall trai
                           t iniing for years wh
                                               here th
                                                    there is no nati
                                                                  tionall
            conference. The importance of this training will be stressed
            during the conferences.
  3.	       ORCR stated
                      t t d that
                            th t the
                                 th conversion
                                           i off weights
                                                   i ht and
                                                          d measures will
                                                                      ill
            be stressed during the national conferences and expanded
            training.
  4.	       ORCR stated     th t itit will
                      t t d that       ill stress
                                            t     the
                                                  th importance
                                                      i   t     off identifyi
                                                                    id tif ing
            critical documents needed to support program needs and
            establish retention guidelines.



11-P-0096                                                                        6
RCRAInfo System Development Practices 

N d IImprovement
Need

    The data dictionary as not updated
              dictionar was      pdated to reflect changes in
     RCRAInfo business rules.
    System code errors existed in the application software.
    Test data existed in the production database.
    The test environment was not used consistently.




11-P-0096                                                       7
Reasons For System Life Cycle Management 

Proced
     dure Issues

    EPA personnel did not ensure that RCRAInfo version 4 system
     documentation accurately depicted the system’s actual design.
    System testing did not detect system code errors in RCRAInfo
     version 4.
    The program office did not enforce use of test environment for
     testing purposes.
    No formal process is in place to identify test data in the production
     database.




11-P-0096                                                                    8
OIG Recommendations


  Director, Office of Resource Conservation and Recovery (ORCR),
  Office of Solid Waste and Emergency Response, should:

   5.	      Implement a control procedure to enforce that business rule 

            changes are updated in the RCRAInfo system documentation.

   6.	      Implement a control procedure to enforce that RCRAInfo coding
            changes are tested prior to placement into production.
   7.	      Notify
                 y states to use the test environment for all testing
                                                                    ginstead 

            of the production environment.

   8.	      Implement a procedure to review the production database for 

            test data on a semiannual basis.





11-P-0096                                                                        9
 EPA’s Responses to the Findings


5.	     ORCR stated it currently has a process in place and has been
        working with states to correct orphan data
                                              data. Software will be
        developed as each module is released and will be run monthly to
        detect orphan data.
6.	     ORCR stated that application software does go through extensive
        testing by internal developers, independent contractors, and the
        user community before it is released into production.
7.	     ORCR stated that it stresses to the user community that only
        preprodduction
                   ti data
                         t should
                             h 	ld be
                                   b used d ffor ttesti
                                                     ting or data
                                                               t entry
                                                                   t
        training. ORCR will again stress the importance of using the test
        environment for test data.
8.	     ORCR stated that it is in the process of developing a tool for the
        purpose of verifying test data. Once developed, this tool will be run
        monthly to identify any test data in production.



 11-P-0096                                                                  10
                                    Status of Recommendations and
                                      Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
Rec.       Page                                                                                                    Completion   Claimed    Agreed To
No.         No.                         Subject                         Status1         Action Official               Date      Amount      Amount

 1           5	   Implement a procedure for regional personnel to         O       Director, Office of Resource 

                  notify a state when changes are made to handler                 Conservation and Recovery,

                  records.                                                         Office of Solid Waste and 

                                                                                     Emergency Response 


 2           5	   Conduct training for data entry personnel regarding     O       Director, Office of Resource 

                  the proper procedures for documenting updates to                Conservation and Recovery,

                  RCRAInfo.                                                        Office of Solid Waste and 

                                                                                     Emergency Response 


 3           5	   Provide guidance and policy from the program level      O       Director, Office of Resource 

                  regarding retaining source documentation.                       Conservation and Recovery,

                                                                                   Office of Solid Waste and 

                                                                                     Emergency Response 


 4           5	   Provide additional guidance to states to facilitate     O       Director, Office of Resource 

                  accurate conversion of hazardous waste amounts                  Conservation and Recovery,

                  as required for input into RCRAInfo.                             Office of Solid Waste and 

                                                                                     Emergency Response 


 5           9	   Implement a control procedure to enforce that           O       Director, Office of Resource 

                  business rule changes are updated in the                        Conservation and Recovery,

                  RCRAInfo system documentation.                                   Office of Solid Waste and 

                                                                                     Emergency Response 


 6           9	   Implement a control procedure to enforce that           O       Director, Office of Resource 

                  RCRAInfo coding changes are tested prior to                     Conservation and Recovery,

                  placement into production.                                       Office of Solid Waste and 

                                                                                     Emergency Response 


 7           9	   Notify states to use the test environment for all       O       Director, Office of Resource 

                  testing instead of the production environment.                  Conservation and Recovery,

                                                                                   Office of Solid Waste and 

                                                                                     Emergency Response 


 8           9	   Implement a procedure to review the production          O       Director, Office of Resource 

                  database for test data on a semiannual basis.                   Conservation and Recovery,

                                                                                   Office of Solid Waste and 

                                                                                     Emergency Response 





 1     O = recommendation is open with agreed-to corrective actions pending
       C = recommendation is closed with all agreed-to actions completed
       U = recommendation is undecided with resolution efforts in progress




 11-P-0096                                                                                                                                        11
                                                                                Appendix A

                                    Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Acting Director, Office of Resource Conservation and Recovery, Office of Solid Waste and
       Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Information
Audit Followup Coordinator, Office of Solid Waste and Emergency Response




11-P-0096                                                                                  12
